SIGAR                                   Special Inspector General for
                                         Afghanistan Reconstruction




                                                       SIGAR Audit 13-15




     Afghanistan Public Protection Force: Concerns Remain about
     Force’s Capabilities and Costs




                                                            JULY
                                                          2013
SIGAR Audit 13-15/Security Transition
                                                 JULY 2013



SIGAR
                                                 Afghanistan Public Protection Force: Concerns Remain about Force’s
                                                 Capabilities and Costs


                                                 SIGAR AUDIT 13-5
Special Inspector General for
Afghanistan Reconstruction
                                                 WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                              The effect of the transition to the Afghan Public Protection Force (APPF)
                                                 has been minimal on projects in SIGAR’s sample, but only because
USAID relies on implementing
                                                 implementing partners hired risk management companies (RMCs) to fill
partners—such as nongovernmental
                                                 APPF capacity gaps and perform critical functions. Without RMCs, the
organizations and commercial
                                                 APPF would be unable to provide the full range of security services
companies—to carry out its
                                                 needed by U.S. Agency for International Development (USAID)
reconstruction and development
                                                 implementing partners. Contracts with implementing partners require the
assistance programs in Afghanistan.
                                                 APPF to provide an appropriate number of capable and trained guards, as
Until early 2012, implementing
                                                 determined by the APPF in conjunction with the implementing partner,
partners executing USAID’s largest
                                                 and a sufficient number of properly trained officers and non-
projects, by dollar value, contracted
                                                 commissioned officers to oversee the guards. However, for five projects
with private security contractors (PSCs)
                                                 that use APPF services, RMCs perform critical functions and fill gaps in
to provide security services for
                                                 APPF capabilities in recruiting, training, and supervision. Further,
personnel, offices, housing, project
                                                 implementing partners reported that APPF officers and non-
sites, and movements. In August 2010,
                                                 commissioned officers provided little benefit and were unable to perform
the President of Afghanistan issued a
                                                 required duties.
decree requiring the disbandment of all
PSCs. However, in March 2011, the                Although contracted security costs decreased for more than half of the
Afghan government issued a “bridging”            projects in our sample following the transition to the APPF, those
strategy that delayed by 1 year the              decreases occurred largely as a result of implementing partners
PSCs’ disbandment and the                        reassessing security needs and renegotiating expatriate labor rates or
requirement that implementing                    contracts. The ease with which implementing partners revised their
partners transfer security services              security postures and renegotiated expatriate labor rates to decrease
formerly provided by PSCs to the state-          costs raises the concern that previous security requirements and costs
run APPF. The strategy also allowed the          billed to USAID by implementing partners were unnecessarily high.
use of RMCs to provide security
advisory services.                                APPF Locations in Afghanistan

This report follows up on SIGAR’s June
2012 audit that outlined concerns
regarding the security transition from
PSCs to the APPF. The objectives of this
audit were to (1) determine the effect
of the transition to the APPF on the
security provided for USAID projects,
(2) examine the costs of APPF and RMC
services for select projects, and
(3) assess USAID’s mechanisms to
review costs of security services
provided by the APPF and RMCs. To
address these objectives, SIGAR
selected 10 projects that were active
as of October 2012, part of the sample
selected for the June 2012 report, and
                                                  Source: SIGAR analysis of APPF Advisory Group data.
using a PSC prior to the transition.


  For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
WHAT SIGAR FOUND (CONTINUED)
Ultimately, relying on the APPF as the sole provider of security services raises concerns for future unrestrained cost
increases. As it currently stands, the APPF can unilaterally establish its rates without fear of competition, and
USAID does not have mechanisms in place to ensure that the APPF only charges implementing partners for the
services it provides. For example, SIGAR found that the APPF billed each implementing partner for some services
and items actually provided by the RMCs and implementing partners that require armed security have no choice
but to pay the APPF’s often inconsistent and inappropriate fees. Thus, the APPF acts as a monopoly service
provider. Although contracted security costs for the majority of projects decreased, the average rate for armed
local guard services increased as much as 47 percent for projects under the APPF. These costs could increase
even more over time and implementing partners—left with no other options for local armed guard services—would
have no choice but to pay the higher prices.
Finally, USAID’s continuing inability to ensure that its implementing partners adhere to Afghan government
regulations for the proper use of RMCs may result in Afghan government intervention to disband RMCs without a
valid RMC license. Should the Afghan government intervene in this way, USAID’s implementing partners would be
left without the security services required to continue operations.



WHAT SIGAR RECOMMENDS
SIGAR is making five recommendations to (1) determine why a formal process requiring implementing partners to
submit RMC licenses as part of their requests to enter into subcontracts with RMCs was never created,
(2) establish and implement the necessary processes requiring implementing partners to submit RMC licenses,
(3) develop policy guidance for implementing partners regarding the proper use of RMCs, (4) clarify the ratio of
RMC guards to APPF guards cited in RMC regulations, and (5) establish a formal process to ensure that
implementing partners do not exceed the RMC ratio.
In its comments on a draft of this report, USAID disagreed with SIGAR’s recommendations. Despite its
disagreement, however, USAID identified several steps it has or is taking to address several of them. For example,
although USAID disagreed with SIGAR’s recommendations regarding the necessary policy and processes requiring
its implementing partners to submit RMC licenses, USAID commented that it has already developed such policy
and processes and that a reminder to use them was sent to USAID’s Office of Acquisition and Assistance staff on
July 2, 2013—1 day after SIGAR provided its draft report to USAID for comment. Nevertheless, as USAID
acknowledges in its comments, full compliance with this policy has not yet been implemented. Therefore, SIGAR
maintains that the recommendations continue to be valid.
Moreover, USAID disagreed with SIGAR’s recommendation to develop guidance for implementing partners on the
proper use of RMCs, stating that the Afghan government had already provided such guidance. However, as
SIGAR’s draft report noted and USAID acknowledges in its comments, Afghan government procedures are unclear
and can be interpreted in different ways. SIGAR maintains that USAID should clarify its position on the use of
RMCs and alert its implementing partners accordingly.
USAID also disagreed with SIGAR’s recommendations to clarify the ratio of RMC guards to APPF guards and to
establish a process to ensure that implementing partners do not exceed the ratio. However, USAID also
commented that it recently took actions to address these recommendations. USAID also noted that it is the
responsibility of implementing partners, not USAID, to ensure the ratio is not exceeded. SIGAR disagrees. Because
it relies on implementing partners to achieve its project objectives, USAID has a vested interest in ensuring that
those partners comply with Afghan law. If USAID’s implementing partners are found to be in violation of Afghan
law, the project itself may be at risk. SIGAR maintains that the recommendations are valid.




 For more information, contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
July 30, 2013


The Honorable John F. Kerry
Secretary of State
The Honorable Rajiv Shah
Administrator, U.S. Agency for International Development
Mr. William Hammink
USAID Mission Director for Afghanistan


This report discusses the results of SIGAR’s audit of the U.S. Agency for International
Development’s (USAID) transfer of security functions for its reconstruction projects in
Afghanistan from private security contractors to the Afghan Public Protection Force (APPF). The
report includes five recommendations to the USAID Mission Director to (1) determine why a
formal process requiring implementing partners to submit risk management company (RMC)
licenses as part of their requests to enter into subcontracts with RMCs was never created,
(2) establish and implement the necessary processes requiring implementing partners to
submit RMC licenses, (3) develop policy guidance for implementing partners regarding the
proper use of RMCs, (4) clarify the ratio of RMC guards to APPF guards cited in RMC
regulations, and (5) establish a formal process to ensure that implementing partners do not
exceed the RMC ratio.
We received written comments on a draft of this report from USAID, which we incorporated, as
appropriate. USAID did not agree with our recommendations, but identified several steps it has
taken, or is taking, to address several of them. USAID’s comments and our responses are
presented in appendix II.
SIGAR conducted this audit under the authority of Public Law No. 110-181, as amended; the
Inspector General Act of 1978, as amended; and in accordance with generally accepted
government auditing standards.




John F. Sopko
Special Inspector General
   for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 2 

Implementing Partners Are Relying on RMCs Because the APPF Is Not Able to Perform Some Basic Functions . 4 
Contracted Security Costs Generally Decreased Following the Transition Due to Revised Security Postures and
Lower Expatriate Labor Rates ..................................................................................................................................... 5 

Despite USAID’S Efforts to Review Costs, the APPF Charges Inconsistent and Inappopriate Fees ....................... 9 
Conclusion.................................................................................................................................................................. 11 
Recommendations .................................................................................................................................................... 12 

Agency Comments ..................................................................................................................................................... 12 
Appendix I - Scope and Methodology ....................................................................................................................... 14 
Appendix II - Comments from the U.S. Agency for International Development ...................................................... 16 

Appendix III - Acknowledgments ............................................................................................................................... 25 


TABLES

Table 1 - Selected USAID Projects .............................................................................................................................. 3 
Table 2 - Difference in Security Costs and Personnel for Projects That Transitioned to the APPF ......................... 6 
Table 3 - Difference in PSC and APPF Monthly Burdened Guard Rates ................................................................... 7 

Table 4 - Difference in Security Costs and Personnel for Projects That Did Not Transition to the APPF................ 8 


FIGURES

Figure 1 - APPF Locations in Afghanistan................................................................................................................... 2 


ABBREVIATIONS

                    APPF                                    Afghan Public Protection Force
                    MOI                                     Afghan Ministry of Interior
                    PSC                                     private security contractor
                    PLSO                                    Partner Liaison Security Office

                    RMC                                     risk management company
                    USAID                                   U.S. Agency for International Development




SIGAR Audit 13-15/Security Transition                                                                                                                                 Page i
The U.S. Agency for International Development (USAID) relies heavily on implementing partners, such as
nongovernmental organizations and commercial companies, to carry out its reconstruction and development
assistance programs in Afghanistan.1 Until early 2012, implementing partners executing USAID’s largest
projects by dollar value contracted with private security contractors (PSCs) to provide security services for their
personnel, offices, housing, project sites, and movements. However, in August 2010, the President of
Afghanistan issued Presidential Decree 62 requiring the disbandment of all PSCs.2 The decree stated that the
organizations could provide their own security inside their compounds and that the Ministry of Interior (MOI)
would provide external security. In March 2011, the Afghan government issued a “bridging” strategy that
delayed the disbandment of PSCs and required that the responsibility for security services for development
programs and projects transfer to a state-run Afghan Public Protection Force (APPF) by the following year.3 To
address concerns about the APPF’s capacity to provide all security services previously provided by PSCs, the
President of Afghanistan approved a security model that allowed implementing partners to use “risk
management companies” (RMCs) to provide advisory services in addition to the armed security services
provided by the APPF.
In a March 2012 alert letter; a March 2012 testimony before the U.S. House of Representatives, Committee on
Oversight and Government Reform, Subcommittee on National Security; and a June 2012 audit report, we
alerted the USAID Mission Director for Afghanistan to multiple concerns related to the impending APPF
transition.4 This audit builds on that previous work, which we conducted prior to and during the initial
transition, and examines the actual effects of the transition 1 year later. Specifically, we conducted this audit
to (1) determine the effect of the transition to the APPF on the security provided for USAID reconstruction
projects, (2) examine the costs of APPF and RMC services for select USAID projects, and (3) assess USAID’s
mechanisms to review costs of security services provided by the APPF and RMCs.
To address these objectives, we selected 10 projects that were (1) active as of October 2012, (2) in the sample
selected for the previous June 2012 audit report, and (3) using a PSC prior to the transition. The previous
sample represented 35 of the largest projects, by dollar value, from fiscal years 2009-2011. A total of 8
implementing partners executed these 10 projects, which represent over $1 billion in total estimated cost and,
as of March 2013, about $713 million in expenditures. Of these projects, 5 transitioned to the RMC/APPF
model, 4 used only an RMC, and 1 did not use either the APPF or an RMC. For the 10 selected projects, we
requested APPF and RMC invoices from each implementing partner, as applicable. Additionally, we reviewed
relevant guidance, including the Federal Acquisition Regulation, Code of Federal Regulations, Presidential
Decree 62, and The Bridging Strategy for Implementation of Presidential Decree 62. We also met with officials




1“Implementing   partners” is a term USAID uses to mean contractors and recipients of cooperative agreements and grants.
2
President of Islamic Republic of Afghanistan Decree 62, Dissolution of Private Security Companies, August 17, 2010.
3Minister of Interior, The Bridging Strategy for Implementation of Presidential Decree 62, (Dissolution of Private Security

Companies); Bridging Period March 22, 2011- March 20, 2012, March 15, 2011. Although the bridging strategy set March
20, 2012 as the deadline for the transition of security for development projects, on that day, the Afghan government
released an APPF transition plan granting interim licenses to some PSCs, allowing implementing partners more time to
finalize security contracts with the APPF. Development programs and projects include all projects funded by USAID and
executed by its implementing partners. PSCs providing services for International Security Assistance Force and Afghan
National Security Forces construction sites and for coalition bases were given up to an additional year to continue the use
of PSCs. Entities accredited with diplomatic status are exempt and can continue the use of PSCs for their security needs.
4SIGAR  Alert 12-1, Preliminary Observations and Suggested Actions before Transition of Security Services to Afghan Public
Protection Force, March 15, 2012; SIGAR Testimony for the U.S. House of Representatives, Committee on Oversight and
Government Reform, Subcommittee on National Security, Are Changes in Security Policy Jeopardizing USAID
Reconstruction Projects and Personnel in Afghanistan? March 29, 2012; SIGAR Audit 12-10, Increases in Security Costs
are Likely under the Afghan Public Protection Force; USAID Needs to Monitor Costs and Ensure Unlicensed Security
Providers Are Not Used, June 29, 2012.

SIGAR Audit 13-15/Security Transition                                                                               Page 1
from USAID, the APPF Advisory Group,5 the implementing partners for the 10 projects, and 2 RMCs. See
appendix I for more detail on our scope and methodology.


BACKGROUND

Prior to March 2012, many of USAID’s implementing partners had contracts with at least one PSC to provide
functions. PSCs provided four basic security services:6
           static (site) security—protecting fixed or static sites, such as housing areas, reconstruction work sites,
            or government buildings;
           convoy security—protecting convoys traveling through unsecured areas;
           security escorts—protecting individuals traveling through unsecured areas; and
           personal security details—providing full-time protective security to high-ranking individuals.
Following the Afghan government decision to disband PSCs through Presidential Decree 62, the Commander of
the International Security Assistance Force and the U.S. Ambassador to Afghanistan issued a joint letter
expressing support for the transfer of security services to the state-run APPF. In the same letter, however, they
cautioned that a successful transition would depend on certain actions taken by the Afghan government,
including the development of a fully functioning APPF by March 2012—the end of the bridging period—for
development projects.7

The APPF is a pay-for-service security
                                                   Figure 1 - APPF Locations in Afghanistan
provider and a state-owned enterprise
under the Afghan MOI. Originally
established in 2009, the APPF was
selected by the Afghan government as
the force that would ultimately
replace PSCs. The APPF is
headquartered in Kabul and
embedded in six Afghan National
Police zone headquarters in Kabul,
Herat, Mazar-e-Sharif, Kandahar,
Gardez, and Lashkar Gah. It also has
a presence in two provincial
headquarters in Jalalabad and
Kunduz.8 According to the APPF
Advisory Group, as of May 2013, the
APPF had about 14,873 guards, far
short of the Afghan government target
of 25,000 by March 2013. Figure 1
shows a map of APPF locations
throughout Afghanistan.                            Source: SIGAR analysis of APPF Advisory Group data.




5To help MOI build the APPF, assess its capacity, and ensure a smooth transition of security services, the International
Security Assistance Force established the APPF Advisory Group to work with the MOI. The APPF Advisory Group includes
representatives from the International Security Assistance Force, U.S. Embassy Kabul, and USAID.
6PSCs     also provided other security services, such as operational coordination, intelligence analysis, and security training.
7Letter   to Minister of Interior, Afghanistan Bismullah Khan Mohammadi, March 15, 2010.
8APPF  guards are not members of the Afghan National Army or Police and they have no mandate to investigate crimes or
arrest suspects.

SIGAR Audit 13-15/Security Transition                                                                                      Page 2
To address concerns about the APPF’s capacity to provide the full range of security services previously
provided by PSCs, the President of Afghanistan allowed implementing partners to use RMCs as a temporary
solution. Under this new security model, the Afghan government requires implementing partners to contract
with the APPF for any armed security services. However, the implementing partners also have the option of
hiring an RMC to provide security advisory services. RMCs can advise implementing partners on the security of
sites, buildings, and personnel. RMCs can also advise on logistics, transportation of goods and equipment, and
contract management. In addition, RMCs can provide training to APPF guards. RMCs cannot provide armed
security or other guard services, but some RMC personnel may be lightly armed for their personal protection.
To register as an RMC, a company must submit an application to the MOI and pay various fees, including a
yearly licensing fee, a bank guarantee, and fees for each armored vehicle and armed personnel.9 The Afghan
government expects that as the APPF develops, it will begin to provide the full range of security services
previously provided by PSCs, ultimately eliminating the need for RMCs.10 If implementing partners choose not
to contract with the APPF or RMCs, their only remaining option for security services is to use unarmed guards.


Table 1 - Selected USAID Projects
                                                                                       Contracted with       Contracted
                     Project                           Implementing Partner
                                                                                          the APPF          with an RMC

Regional Afghan Municipalities Program for
                                                    Chemonics International Inc.      Yes                 Yes
Urban Population- South
Trade Access and Facilitation for Afghanistan       Chemonics International Inc.      Yes                 Yes
Regional Afghan Municipalities Program for
                                                    Development Alternatives Inc.     Yes                 Yes
Urban Population- East
Incentives Driving Economic Alternatives for
                                                    Development Alternatives Inc.     Yes                 Yes
the North, East, and West
                                                    Black & Veatch Special
Kandahar-Helmand Power Program                                                        Yes                 Yes
                                                    Projects Corporation
Support Increased Electoral Participation in
                                                    National Democratic Institute     No                  Yes
Afghanistan 1a
Support Increased Electoral Participation in        International Foundation for
                                                                                      No                  Yes
Afghanistan 2                                       Electoral Systems
Support Increased Electoral Participation in        International Republican
                                                                                      No                  Yes
Afghanistan 3                                       Institute
Economic Growth and Governance Initiative           Deloitte Consulting               No                  Yes
Health Service Support Project                      JHPIEGO Corporation               No                  No
Source: SIGAR analysis of USAID provided data.
aThe Consortium for Elections and Political Process Strengthening consists of three implementing partners—National

Democratic Institute, International Foundation for Electoral Systems, and International Republic Institute—that together
implement the Support Increased Electoral Participation in Afghanistan. Because each implementing partner handles its
security separately and contracts with its own RMC, we report on each project individually, referring to each as Support
Increased Electoral Participation in Afghanistan 1, 2, or 3, respectively.



9Islamic
       Republic of Afghanistan Ministry of Interior Affairs, Procedure for Regulating Activities of Risk Management
Companies in Afghanistan, January 10, 2012. The registration fee—six million Afghanis or approximately $114,395, using a
2013 exchange rate of 52.45 AFN to $1—is the same amount required for a PSC license before the transition.
10The   Afghan government has not indicated if or when it will disallow the use of RMCs.

SIGAR Audit 13-15/Security Transition                                                                               Page 3
During the course of this audit, we identified and selected a judgmental sample of 10 USAID projects that were
(1) included in the sample for our previous work of USAID’s 35 largest projects, by dollar value, between fiscal
years 2009 through 2011,11 (2) active as of October 1, 2012, and (3) using a PSC prior to the transition. As of
March 31, 2013, these projects had collective expenditures over $713 million. Table 1 shows the 10 USAID
projects in our sample and whether they contracted with the APPF or an RMC after the transition in March
2012.


SIGAR Raised Concerns Regarding the APPF in 2012
Our previous audit work identified three concerns related to the transition to the APPF.12 These concerns
related to (1) the cost of the transition, (2) weak APPF capacity, and (3) lapses in USAID oversight of PSCs. For
example, in our June 2012 audit report, we found that the cost for local guards would likely increase under the
APPF.13 The report also noted that some implementing partners indicated they might hire more expatriates to
facilitate the transition, a move that could significantly increase expatriate labor costs.14 We found that
implementing partners for six projects illegally used unlicensed PSCs despite two earlier recommendations
from SIGAR and the USAID Office of Inspector General that USAID take steps to ensure the use of licensed
PSCs.15 We made three recommendations to USAID that it conduct a systematic assessment of security costs
and institute a formal review process to ensure that implementing partners are using licensed RMCs.16


IMPLEMENTING PARTNERS ARE RELYING ON RMCS BECAUSE THE APPF IS
NOT ABLE TO PERFORM SOME BASIC FUNCTIONS

The effect of the transition to the APPF has been minimal on projects in our sample, but only because
implementing partners hired RMCs to fill APPF capacity gaps and perform critical functions. Contracts with
implementing partners require the APPF to provide an appropriate number of capable and trained guards, as
determined by the APPF in conjunction with the implementing partners, and a sufficient number of properly
trained officers and non-commissioned officers to oversee the guards. However, for the five projects in our
sample that use APPF services, we found that the APPF was unable to provide the full range of security
services needed by USAID implementing partners. Instead, RMCs perform critical functions and fill a number
of gaps in APPF capabilities. The critical functions include:
         Recruiting. Implementing partners and RMCs, rather than the APPF, recruited almost all newly hired
          guards. According to the APPF Advisory Group, the APPF has difficulty providing guards for projects and
          programs outside the Kabul area, and one implementing partner reported lengthy delays in obtaining
          new recruits directly from the APPF.
         Training. It is the contractual responsibility of the APPF to provide initial and ongoing training for APPF
          guards, and the APPF charges a monthly training fee for the training service. However, we found that

11SIGAR   Audit 12-10.
12SIGAR   Alert 12-1.
13SIGAR   Audit 12-10.
14While  no official definition of an expatriate exists, USAID and its implementing partners generally consider expatriates to
be U.S., Australian, Canadian, South African, or British citizens. Citizens of other countries—often from the Middle East or
Central Asia—are considered third country nationals.
15SIGAR Alert 12-1.; USAID Office of Inspector General Audit Report No. 5-306-10-009-P, Audit of USAID/Afghanistan’s

Oversight of Private Security Contractors in Afghanistan, May 21, 2010.
16PSCs  generally provided for overall project security and consisted of management, advising, oversight, and training
functions—staffed predominately by expatriates or third-country nationals—as well as guards, staffed predominately by
Afghan nationals. Following issuance of the bridging strategy, many PSCs converted their expatriate management, advising,
oversight, and training structure into an RMC.

SIGAR Audit 13-15/Security Transition                                                                                   Page 4
         RMCs provided virtually all training for APPF personnel. An average of 99 percent of APPF guards for
         the five projects in our sample that use APPF services were previously recruited, hired, and trained by
         PSCs—now RMCs—before the transition and have not required or received any direct training from the
         APPF. Furthermore, implementing partners for all five projects reported concerns that guards that had
         been recruited and trained by the APPF were unprepared and did not meet the standards of guards
         trained by the RMCs. One implementing partner puts all APPF-provided personnel through its RMC’s
         internal training regimen.
        Supervision. According to USAID officials and implementing partners, the APPF requires one APPF
         officer or non-commissioned officer for every ten APPF guards. However, the APPF did not provide
         enough properly trained officers or non-commissioned officers to meet contractual requirements for
         four of five projects. As a result, RMC personnel performed the supervisory functions that are the
         responsibility of APPF officers.17
        Performance. The officers and non-commissioned officers provided by the APPF added little value to
         project security or APPF performance, and many were unable to perform required duties, according to
         implementing partners. One implementing partner stated that the officers are not able to perform daily
         roll call functions, and two implementing partners reported that the officers do not speak English,
         which is required. Two implementing partners stated that they resist the assignment of additional
         officers and non-commissioned officers because the additional personnel provide little value but
         increase costs.
Overall, the implementing partners for all five projects stated that the combined services of the APPF and the
RMCs “equaled” the services provided by the PSCs, and because the RMCs performed the critical functions of
recruiting, training, and supervising, security services were not affected as a result of the transition.


CONTRACTED SECURITY COSTS GENERALLY DECREASED FOLLOWING THE
TRANSITION DUE TO REVISED SECURITY POSTURES AND LOWER EXPATRIATE
LABOR RATES

All five projects whose implementing partners contracted with the APPF also hired an RMC, and four of those
projects experienced a decrease in contracted security costs because implementing partners revised their
security postures, consolidated security requirements, and/or decreased labor costs for their expatriate
personnel. For example, four projects significantly decreased expatriate labor costs by either re-competing their
contracts or renegotiating lower expatriate labor rates with the RMC. We found that the average rate for
expatriate personnel decreased more than $30,000 per year per expatriate for the RMCs, compared to
expatriates hired by the PSCs. Additionally, implementing partners for two projects consolidated staff from
multiple guest houses into a single compound, thereby reducing security requirements and associated costs.
One project had a significant increase in security costs following the transition, but the increase was the result
of a significantly expanded project scope, rather than the effect of the transition. Table 2 shows the difference
in security costs before and after the transition for the five projects in our sample that transitioned to the APPF
as well as the change in security personnel for each project.




17APPF officers are appointed by the APPF to lead the guards and act as principal APPF representatives, liaising directly

with implementing partners.

SIGAR Audit 13-15/Security Transition                                                                                 Page 5
Table 2 - Difference in Security Costs and Personnel for Projects That Transitioned to the APPF
                                                            Change in
                                                                                Change in
                                          Change in          Armed                                   Change in Afghan
                                                                              Armed Afghan
               Projecta                    Security         Expatriate                               National Unarmed
                                                                              National Guard
                                            Costsb          Personnel                                   Personnele
                                                                                Personnel
                                                          (PSC to RMC)

Regional Afghan Municipalities
Program for Urban Population–South           -89%c               -6c                 -85                      -43
Trade Access and Facilitation for
Afghanistan                                  -18%c              +13c                 +10                      -46
Regional Afghan Municipalities
Program for Urban Population–East             -38%               -7                  -29                      -27

Incentives Driving Economic
Alternatives for the North, East, and
West                                          -37%               -1                  -48                       -3

Kandahar–Helmand Power Program              +530%d              +44                  +92                       -9

Source: SIGAR analysis of PSC invoices from March 2011 to February 2012 and APPF and RMC invoices from March
2012 to February 2013.
Notes:
aSeveral projects also had changes in the number of unarmed expatriates, unarmed third country nationals, and armed
third country nationals,.
bPercentage    represents the change in monthly average security costs from the 12 month period preceding the March
2012 transition to the 12 month period after the transition. APPF invoices were billed in Afghanis and RMC invoices in
U.S. dollars. Implementing partners locked in a rate of 50 AFN to $1, and we therefore used the same conversion rate.
cIn anticipation of the transition and in an effort to reduce security costs, Chemonics reported that it consolidated all of
its security services for all projects in Afghanistan under one RMC contract and one APPF contract. Therefore, we could
not determine the security costs and personnel numbers per project based on the subcontractor invoices provided by
Chemonics. Instead, Chemonics provided us its calculations of security costs for the RMC and APPF and total personnel
allocations per project, and these are the totals used in our analysis. As a result, we cannot validate the security costs
for the two Chemonics projects.
dFrom  March to December 1, 2012, the U.S. Army Corps of Engineers provided security for Kajaki Dam under the
Kandahar-Helmand Power Program, and USAID reimbursed the agency for $5.9 million in security costs for this period.
To ensure these security costs were included, we amortized this value over the 9 month period and included it in our
pre-transition security costs for analysis.
ePersonnel   numbers were self-reported by implementing partners.

Although contracted security costs decreased, all five projects incurred additional costs that were not captured
in APPF or RMC invoicing and, therefore, were not depicted in table 2. For example, the implementing partners
for all five projects initially hired additional personnel—three projects hired new personnel on a permanent
basis—to assist in the award and management of APPF contracts.18 For three of these projects, more than half
of the personnel were permanent hires and expatriates, which cost, on average, more than $300,000 each
year.19 Implementing partners stated that additional personnel were necessary due to the “personality-driven”


18These internalized costs could not be captured through an invoice review of contracted security services and could not be

included in an overall comparison of project security costs because these direct hires generally worked on RMC/APPF
issues across all projects for the implementing partner, rather than exclusively for the projects in our sample. Therefore, we
could only compare the contracted security costs prior-to and following the transition, rather than the total security costs
incurred by implementing partners in the first year of the transition.
19All projects that transitioned reported hiring additional personnel, but several of these projects hired the personnel on a

temporary basis to manage the initial transition.

SIGAR Audit 13-15/Security Transition                                                                                   Page 6
nature of the APPF, which required significant additional administrative and management personnel time for
contract negotiations and APPF contract management. One security manager estimated that he is at the APPF
headquarters four times per week. Furthermore, implementing partners for three projects stated that because
they were concerned about APPF personnel whom they or their RMC had not recruited and vetted, they
upgraded site security—and incurred additional one-time costs—to prevent APPF personnel from entering
expatriate living or work spaces.20

Rates Charged for Local Guards Increased Following the Transition
Although overall contracted security costs decreased for four of the five projects that contracted with the APPF
and RMCs, we found that the burdened rate charged for local guards actually increased.21 Our June 2012
report showed that if salaries for local Afghan guards were kept constant, the transition to the APPF would
increase burdened costs for local guards between 25 and 46 percent. In this audit, our analysis of APPF
invoices to implementing partners shows that since the transition from PSCs to the APPF, individualized
burdened rates for local guards increased between 23 and 47 percent. The increase and variation in costs is,
in part, the result of the increases in non-salary direct costs for local guards. For example, implementing
partners reported that they paid between $99 and $274 for uniforms per guard per year when they were using
PSCs. However, the APPF charged $600 for uniforms per guard per year beginning in March 2012. By March
2013, the APPF had increased the uniform costs to $800 per guard per year. The APPF also charged
implementing partners varying rates for training, administrative costs, bank charges, and burial expenses.
Table 3 compares the APPF burdened guard rates for projects in our review to the average burdened rate for a
local guard under a PSC contract in fiscal year 2011.22


Table 3 - Difference in PSC and APPF Monthly Burdened Guard Rates a
                              TAFA/RAMP-                               RAMP-UP
         Projectb                                  SIEPA 3c                               KHPP (A)d          KHPP (B)d
                                UP South                            East/IDEA-NEW
APPF Guard Burdened
Rate                              $695               $709                $736                $807               $833
Average Burdened Rate for
PSC Guard in 2011e                $566               $566                $566                $566               $566
Percent Change                    +23%               +25%                +30%                +43%              +47%
Source: SIGAR analysis of PSC invoices and available APPF invoices
Notes: a The cost comparison does not account for inflation between October 2011 and March 2012. b Project acronyms
are as follows: TAFA – Trade Access and Facilitation for Afghanistan; RAMP-UP – Regional Afghan Municipalities Program
for Urban Population; SIEPA – Support Increased Electoral Participation in Afghanistan; IDEA-NEW – Incentives Driving
Economic Alternatives for the North, East and West; KHPP – Kandahar-Helmand Power Program. cWhile the International
Republican Institute does not contract directly with the APPF, the Institute’s RMC, Pilgrims Group, manages the APPF
security on the implementing partner’s compound. We calculated the burdened rate based on invoices provided by Pilgrims
Group. dBlack & Veatch Special Projects Corporation has one contract with the APPF for the Kandahar-Helmand Power
Program. This contract has several task orders for specific activities. Each task order contains specific requirements and
terms for security for different elements under the Kandahar-Helmand Power Program. These rates were applied to two
different task orders under the contract with the APPF. eAverage burdened rate for a local guard employed by a PSC during
the fiscal year 2011 as calculated in SIGAR 12-10.



20We did not include one-time charges, such as security upgrades and RMC registration fees, in our comparison of year-to-

year costs associated with the transition.
21A burdened rate includes the salary of a guard, administrative and overhead costs, profit, and any related other direct

costs. We calculated the burdened rate by identifying all direct costs associated with APPF guards in APPF invoices to
implementing partners. We compared these rates to the average burdened rate, calculated in SIGAR Audit Report 12-10, of
$566 for a local guard employed by a PSC in fiscal year 2011.
22APPF invoices to implementing partners had sufficient data to determine burdened rates for the projects using the APPF.

The Kandahar-Helmand Power Project is implemented through two task orders and the APPF issues separate invoices for
each task order.

SIGAR Audit 13-15/Security Transition                                                                              Page 7
The Five Projects That Did Not Transition Did Not Use Armed Guards
The implementing partners for the other five projects in our review significantly changed their security postures
and four of the five projects eliminated armed local guards from their work sites altogether. The fifth project
never used armed local guards, but eliminated its only armed expatriate as a result of the transition.
Consequently, implementing partners for the five projects did not contract with the APPF for security services.
All five projects instead used unarmed “chowkidars,” or watch keepers, after the transition. Contracted security
costs for three of these projects decreased as a result of the reduced armed security force.
Contracted security costs increased for two projects because implementing partners hired more expatriate
RMC staff and unarmed guards than they had with the PSC. For example, rather than transitioning to the APPF,
one project increased its use of armed expatriate personnel from one to seven, significantly increasing its
overall security costs. Table 4 shows the difference in security costs from before and after the transition for the
five projects that did not transition to the APPF, and the change in security personnel for each project.

Table 4 - Difference in Security Costs and Personnel for Projects That Did Not Transition to the APPFa
                                    Change in       Change in Armed            Change in Armed          Change in Afghan
            Project                  Security      Expatriate Personnel        Afghan National          National Unarmed
                                      Costsb          (PSC to RMC)             Guard Personnel             Personnele

Support Increased Electoral
Participation in Afghanistan 1        -13%c                   0                        -12                       +9
Support Increased Electoral
Participation in Afghanistan 2         +6%                    +1                        -8                      +17
Support Increased Electoral
Participation in Afghanistan 3         -68%                   -4                       -14                       +3
Economic Growth and
Governance Initiative                 +49%                    +6                       -66                      +72
Health Service Support Project        -15%d                   -1                        0                        -5
Source: SIGAR analysis of PSC invoices from March 2011 to February 2012 and RMC invoices from March 2012 to
February 2013.
Notes:
aSeveral projects also had changes in the number of armed third country nationals, unarmed expatriates, and unarmed

third country nationals.
bPercentage represents the monthly average of security costs in the year preceding the March 2012 transition as

compared to the monthly average of security costs in the year after the transition.
cIn addition to subcontracting with an RMC, the National Democratic Institute also directly hired the local guards previously

employed by the PSC as internal unarmed guards. We included the costs for these guards in our analysis of the post-
transition security costs. Further, the National Democratic Institute had one RMC contract for all of its projects in
Afghanistan. Therefore, we could not determine the security costs and personnel numbers per project based on the
subcontractor invoices provided. Instead, the National Democratic Institute provided us its allocation percentages of costs
and personnel for this project, and we used these allocations to calculate the totals used in our analysis. We did not
perform on-site inspections to validate the security costs or personnel numbers for this project.
dIn anticipation of the transition, JHPEIGO directly hired the local guards previously employed by the PSC as internal armed

guards in May 2011. We included these costs in our analysis.
ePersonnel numbers were self-reported by implementing partners.


As with projects that made the transition to the APPF, several projects that did not use the APPF’s services
incurred additional costs that were not captured through invoicing and, therefore, were not depicted in the
table above. For example, implementing partners for two projects installed additional security upgrades, such
as safe rooms and internal blast walls, to further bolster security as part of their revised security posture, at a
total one-time cost of more than $100,000.




SIGAR Audit 13-15/Security Transition                                                                                 Page 8
DESPITE USAID’S EFFORTS TO REVIEW COSTS, THE APPF CHARGES
INCONSISTENT AND INAPPOPRIATE FEES

USAID has mechanisms in place to review the proposed costs associated with an implementing partner’s use
of the APPF before providing consent or approval to subcontract with the APPF. However, the APPF is the only
allowable armed security provider and rates are subject to negotiation by implementing partners. As a result,
our analysis of APPF invoices to implementing partners showed that USAID’s review mechanisms do not and
cannot ensure that APPF rates are consistently applied across implementing partners.
USAID generally requires implementing partners to seek approval or consent from USAID’s Office of Acquisition
and Assistance before signing any subcontract, including subcontracts with RMCs or the APPF.23 According to
officials, USAID’s Partner Liaison Security Office (PLSO)—made up of security experts at the USAID mission in
Afghanistan—reviews implementing partners’ requests to enter into subcontracts with the APPF or an RMC for
“consistent” and “reasonable” security costs before the Office of Acquisition and Assistance grants approval or
consent to subcontract. PLSO provided 10 APPF and RMC subcontract reviews that it completed for the
projects in our sample. Our analysis found that the reviews examined proposed subcontract costs for
consistency with market rates and reasonableness and were thorough and specific in identifying cost and
performance concerns.
However, the APPF is the only allowable security service provider, and the PLSO’s reviews cannot ensure that
APPF rates are reasonable and applied consistently across projects. Implementing partners, RMCs, USAID
officials, and APPF Advisory Group officials all described the APPF as “personality-driven” and noted that a
favorable relationship with the APPF could result in lower fees for some line items. Several implementing
partners were able to negotiate lower rates—or eliminate them altogether—for some line items that they
believed were not reasonable, while other implementing partners were not as successful. For example, one
implementing partner negotiated a phased-in rate for weapons, resulting in a waived weapons charge in the
first year of the APPF contract. The implementing partner paid half the published fee in the second year, and
the full published fee in the third year. For another implementing partner, the APPF agreed to charge the
training fee exclusively for new guards recruited and trained through the APPF, and not for guards that were
originally recruited and trained by the RMC, or the former PSC.
The PLSO identified several concerns with the reasonableness and consistency of some rates associated with
uniforms, training, weapons, and guard salaries. For example, in two reviews, the PLSO questioned why the
APPF was charging training fees if the RMC was actually conducting the training. Additionally, the PLSO’s
reviews for four projects questioned APPF charges for full uniform kits every year. One implementing partner
was able to negotiate to pay only for replacement items; another implementing partner stated that despite its
efforts, it was unable to negotiate the same deal with the APPF.
We also found that USAID’s review mechanisms cannot ensure that the APPF charges implementing partners
only for the services it provides.24 For example, we found that the APPF billed each implementing partner for
some services and items actually provided by the RMCs. Because implementing partners have no option for
armed security services except the APPF, they appear to have no choice but to pay these costs. For example,
the APPF charges a monthly training fee for each guard. Our analysis shows that 99 percent of guards for
these five projects were already trained and certified by the PSC and did not receive training from the APPF,
even though the implementing partner was charged for these services. Additionally, the APPF charges


23According to USAID, implementing partners are required to seek consent to subcontract, and the Federal Acquisition

Regulation (FAR) Subpart 44.2 provides the requirements concerning consent to subcontract. Code of Federal Regulations
Title 22 Part 226.25 requires recipients of USAID funds under a cooperative agreement to seek approval of subaward,
transfer, or contracting out any work under an award.
24USAID does not have a direct contractual relationship with the APPF and does not necessarily review APPF invoices

submitted to implementing partners. However, USAID’s processes for consent or approval do not ensure that proposed
costs for services are allowable based on the actual provision of those services.

SIGAR Audit 13-15/Security Transition                                                                           Page 9
implementing partners a monthly weapons fee of approximately $25 per guard. Implementing partner officials
reported that these are the same weapons previously purchased by PSCs that the APPF required be turned
over to the APPF for use by its guards during the transition.25 Therefore, implementing partners are now paying
a monthly rental fee for weapons previously purchased by its subcontracted PSCs.


USAID Does Not Ensure That Partners Are Using Licensed RMCs
USAID’s mechanisms to review proposed RMC services before providing subcontractor consent or approval do
not ensure that implementing partners are using properly licensed RMCs. Similar to previous requirements for
PSCs, the Afghan government requires foreign RMCs to be licensed by the MOI at a cost of more than
$114,000,26 and licenses must be renewed annually.27 However, in June 2012, we found that USAID’s
implementing partners continued to use unlicensed PSCs despite prior recommendations from SIGAR and the
USAID Office of Inspector General that the agency take steps to ensure implementing partners only use
properly licensed PSCs.28 To correct the problem, we recommended that USAID implement a formal process to
ensure implementing partners only use licensed RMCs following the transition.29 USAID concurred with our
recommendation and issued a policy directive30 in June 2012, requiring contracting and agreement officers to
ensure that implementing partners submit RMC licenses, ensure that the licenses are reviewed for validity, and
document these reviews prior to approving or consenting to the RMC subcontract award.
Despite USAID’s assurances that it would implement a formal process to ensure that licenses are submitted,
reviewed, and documented, and its resulting policy directive, we found that USAID has not implemented such a
process. Our review of the requests to subcontract with RMCs, which were submitted to USAID by the
implementing partners for the eight of nine projects that used an RMC, found that only one implementing
partner provided an RMC license as part of its request.31 Additionally, USAID could not provide us with
documentation showing that licenses were reviewed for validity, and, despite several requests, could provide
us valid licenses for only four of the six RMCs used by implementing partners. Even though USAID did not
require documentation demonstrating that the RMCs were properly licensed, it provided approval or consent
for the projects to enter into subcontracts with the chosen RMC.32
Additionally, USAID’s review mechanisms do not ensure that implementing partners are not exceeding the
maximum number of allowable armed RMC personnel. Afghan government regulations limit the number of

25Original instructions issued by the APPF Advisory Group called for all PSCs to turn over weapons and ammunition to the
APPF and stated that the APPF would pay a fair market price upon receipt. However, we found that although PSCs in our
sample were forced to turn over weapons and ammunition, the APPF did not reimburse/pay for them, nor did the APPF
provide any credit for the weapons and ammunition in invoices. One implementing partner was able to negotiate a phased-
in weapons rental fee. According to USAID officials, implementing partners also had the option of exporting the weapons
out of the country.
26This is the same amount required for a foreign PSC license before the transition. The fee of six million AFN is

approximately $114,395, using a 2013 exchange rate of 52.45 AFN to $1. Local RMCs pay half the license fee of foreign
RMCs.
27Islamic Republic of Afghanistan Ministry of Interior Affairs, Afghan Public Protection Force Enterprise, Risk Management

Company Procedure, 1391.
28SIGAR Alert 12-1; USAID Office of Inspector General Audit Report No. 5-306-10-009-P, Audit of USAID/Afghanistan’s

Oversight of Private Security Contractors in Afghanistan, May 21, 2010.
29SIGAR   Audit 12-10.
30USAID Afghanistan Policy Directive OAA-IN-2012-016, Required Review Process Prior to Subaward Approval/Consent of
RMCs, June 6, 2012.
31SIGAR reviewed the requests to subcontract and the consequent USAID approvals or consents for the first year of the

transition. Although nine projects in our sample used an RMC, USAID only provided requests for consent or approval for
eight.
32We obtained documentation from other sources confirming that all six RMCs were appropriately licensed. USAID provided

documentation showing that approval or consent was provided for 8 of 9 projects.

SIGAR Audit 13-15/Security Transition                                                                              Page 10
armed RMC personnel to one for every ten APPF guards.33 Our analysis found that three of the five projects
that are using both RMCs and the APPF exceeded this ratio. One implementing partner exceeded the ratio by
60 percent—or 45 more armed RMC personnel than allowable.
Further, implementing partners for four projects in our sample contracted with an RMC but did not contract
with the APPF. Although USAID officials assert that this practice is allowable—and have provided consent for
partners to use RMCs without the APPF—contracting with an RMC without security provided by APPF guards
appears to exceed the RMC to APPF ratio stipulated by the Afghan government. USAID officials stated that their
understanding of the regulation is that the ratio applies to RMC personnel compared to the number of
implementing partners’ employees, not APPF personnel. Nevertheless, even if the ratio did compare RMC
personnel to implementing partner personnel, USAID’s review mechanisms do not ensure that implementing
partners do not exceed the maximum number of allowable armed personnel. If implementing partners are
found to be in violation of Afghan law, the Afghan government can fine RMCs and revoke RMC licenses, putting
project security, and ultimately the project itself, at risk.34


CONCLUSION

The Afghan government currently allows limited use of RMCs; however, APPF officers and non-commissioned
officers are expected to eventually assume all the responsibilities and functions currently performed by RMCs.
Nevertheless, the RMCs continue to provide critical functions that allow implementing partners to maintain the
same level of security they had under the PSC model. Ongoing concerns with the capacity and performance of
the APPF in the recruitment and provision of qualified guards and the inability of officers and non-
commissioned officers to perform routine training and supervisory functions indicate that implementing
partners will continue to rely heavily on RMCs for critical services.
Further, while contracted security costs decreased for more than half of the projects in our sample following
the transition, those decreases occurred largely as a result of implementing partners reassessing security
needs and renegotiating expatriate labor rates or contracts. The apparent ease with which implementing
partners revised their security postures and renegotiated expatriate labor rates to reduce costs raises the
concern that previous security requirements and costs were unnecessarily high.
Ultimately, relying on the APPF for as the sole provider of security services raises concerns for future
unrestrained cost increases. As it currently stands, the APPF can unilaterally establish its rates without fear of
competition, and implementing partners that require armed security have no choice but to pay the APPF’s
often inconsistent and inappropriate fees. Thus, the APPF acts as a monopoly service provider. Although
contracted security costs for the majority of projects decreased, the average rate for armed local guard
services increased as much as 47 percent for projects under the APPF. These costs could increase even more
over time and implementing partners—left with no other options for local armed guard services—would have no
choice but to pay the higher prices.
Finally, USAID’s continuing inability to ensure that its implementing partners adhere to Afghan government
regulations for the proper use of RMCs may result in Afghan government intervention to disband RMCs without
a valid RMC license. Should the Afghan government intervene in this way, USAID’s implementing partners
would be left without the security services required to continue operations.




33Risk   Management Company Procedure, 1391.
34Procedure   for Regulating Activities of Risk Management Companies in Afghanistan, January 10, 2012.

SIGAR Audit 13-15/Security Transition                                                                     Page 11
RECOMMENDATIONS

To ensure implementing partners use RMCs in accordance with Afghan government regulations, we
recommend that the USAID Mission Director for Afghanistan:
    1. Determine why a formal process requiring implementing partners to submit Afghan Ministry of Interior
       licenses as part of their requests to enter into subcontracts with RMCs was not created.
    2. Establish and implement the necessary processes requiring implementing partners to submit RMC
       licenses, ensure that the licenses are reviewed for validity, and document these reviews prior to
       approving or consenting to the RMC subcontract award.
    3. Develop policy guidance for implementing partners regarding the proper use of RMCs. Such guidance
       should clearly indicate whether an implementing partner can contract with an RMC when it is not
       contracting with the APPF.
    4. Clarify the ratio regarding the maximum allowable number of RMC personnel cited in RMC regulations
       with the Afghan government.
    5. Establish a formal process to ensure that implementing partners do not exceed the applicable RMC
       ratio.


AGENCY COMMENTS

We received written comments on a draft of this report from the USAID Mission Director for Afghanistan. In
general, USAID disagreed with our recommendations and conclusions. USAID commented that, in its view, the
transition to the APPF was generally successful, noting that overall security costs incurred by its implementing
partners did not increase following the transition. As our report details, however, the transition to the APPF has
faced a number of challenges. For example, the APPF cannot perform a number of basic functions that it is
mandated to provide, such as recruiting, training, and supervision. Further, our analysis shows that, while
overall security costs have declined, this has largely occurred because implementing partners revised their
security postures, consolidated security requirements, and/or decreased labor costs for their expatriate
personnel. Moreover, costs charged by the APPF have, as we predicted, increased. For instance, since the
transition from PSCs to the APPF, individualized burdened rates for local guards have increased between 23
and 47 percent. In addition, as detailed in this report, the APPF has levied unreasonable and inconsistent fees,
such as charging at least $500 more for guard uniforms than implementing partners paid when they used
PSCs. We find these developments—and USAID’s response to them—troubling, particularly given the Afghan
government’s plans to eventually phase out RMCs.
With regard to the first two recommendations, USAID asserted that a formal process has already been
established and implemented. Specifically, USAID stated that it has already issued a policy directive requiring
contract and agreement officers and specialists to include valid RMC licenses as part of their review process
before approving or consenting to a RMC sub-award. While we acknowledge that this policy directive has been
issued, we found that it has not been implemented through a formal process, as USAID was unable to provide
us with any documentation showing that implementing partners submitted licenses and that these licenses
were checked by USAID officials for validity. USAID acknowledges that compliance with the policy “has not been
perfect.” In fact, despite disagreeing with our recommendations, USAID issued a reminder to its Office of
Acquisition and Assistance staff to use the policy on July 2, 2013—1 day after we provided a draft of this report
to USAID for its comments. While we commend USAID for its actions to ensure that compliance with the policy
will be more strictly adhered to in the future, it remains to be seen whether its actions will be successful.
Therefore, we maintain that our recommendations remain valid and will monitor USAID’s efforts to ensure its
implementing partners are appropriately licensed.


SIGAR Audit 13-15/Security Transition                                                                     Page 12
USAID also disagreed with our recommendation to develop policy guidance for implementing partners
regarding the proper use of RMCs, which would clarify whether an implementing partner can contract with an
RMC when it is not contracting with the APPF. USAID stated that the Afghan government already issues
guidance to all implementing partners that wish to use RMC services and that “any additional guidance would
be redundant and could result in possible contradictions.” In our view, it is unclear how the recommended
USAID guidance could be both redundant and contradictory. While we acknowledge that the Afghan
government has issued its own guidance, we found, and USAID acknowledged, that the Afghan government
procedures are unclear and can be interpreted in different ways. Specifically, we found that some
implementing partners interpreted the maximum ratio as RMC personnel to APPF personnel—not RMC
personnel to total—which USAID contends is the correct interpretation as clarified with the Afghan government.
In light of these differing interpretations of the Afghan government’s guidance, we maintain that USAID should
clarify its position on the proper use of RMCs and alert its implementing partners as to the correct
interpretation of the regulations.
Finally, USAID disagreed with our recommendations to clarify the ratio regarding the maximum allowable
number of RMC personnel cited in RMC regulations with the Afghan government and to establish a formal
process to ensure that implementing partners do not exceed the applicable the ratio. Despite disagreeing with
the recommendations, however, USAID commented that it recently took actions to address them. For example,
acknowledging that the Afghan regulation governing RMCs “can be construed as unclear,” USAID commented
that it has clarified the RMC ratio with the Afghan government. Nevertheless, USAID noted that it is the
responsibility of implementing partners and RMCs to ensure that the ratio is not to be exceeded. We disagree.
In our view, USAID relies on its implementing partners to achieve its project objectives and should make every
effort to ensure that those partners do not exceed the established ratio. If implementing partners are found to
be in violation of Afghan law, project security, and ultimately the project itself, is at risk.
We maintain that all of our recommendations are valid. We will monitor their implementation and ensure that
the appropriate congressional committees are informed about the status of compliance.
USAID’s comments and our responses are presented in appendix II.




SIGAR Audit 13-15/Security Transition                                                                  Page 13
Appendix I - Scope and Methodology

In February 2013, SIGAR initiated an audit of the costs of the transition to the Afghan Public Protection Force
(APPF) security on the U.S. Agency for International Development’s (USAID) implementing partners. Specifically,
SIGAR (1) determined the effect of the transition to the APPF on security provided for USAID reconstruction
projects, (2) examined the costs of APPF and risk management companies’ (RMC) services for select USAID
projects, and (3) assessed USAID’s mechanisms to review costs of security provided by the APPF and RMCs.
This was a follow-on audit to our June 2012 report that highlighted concerns regarding USAID’s transition to
the APPF.35
To address our objectives we selected ten projects that were (1) active as of October 2012, (2) also in the
sample selected for the previous June 2012 audit report, and (3) using a private security contractor (PSC) prior
to the transition.36 In our previous report, we selected 35 of USAID’s largest projects representing 75 percent
of total expenditures during fiscal years 2009 through 2011. Those projects represented 17 implementing
partners. To select the projects, the USAID Office of Financial Management (OFM) provided a list of all 162
USAID contracts, cooperative agreements, and grants over $100,000 that had expenditures during fiscal years
2008, 2009, 2010, and 2011. We compared the accrued expenditures for all 162 awards in the OFM report to
computer-processed data previously provided to us from USAID’s financial information system. We reconciled
the total disbursements in the OFM report to USAID’s financial system to within 97.7 percent accuracy. We also
identified some additional discrepancies in the computer-processed data report, such as expenditures for one
financial instrument was listed under different line items, which USAID corrected. Therefore, we concluded that
the data were sufficiently reliable for our purposes. Once we were satisfied the data met our needs, we
excluded any inter-governmental transfers, grants to the Afghan government, or grants to multilateral
organizations. We then stratified the projects by total expenditures to select USAID’s 35 largest projects.
Ultimately, ten of those 35 projects met the selection criteria for this audit. Eight implementing partners
executed these ten projects, representing over $1 billion in total estimated cost and about $713 million in
expenditures as of March 2013. Five of the projects transitioned to the APPF, while the remaining four used
only an RMC, and one project did not use either the APPF or an RMC.37
To identify the effect of the transition to the APPF on USAID reconstruction projects, we reviewed APPF and
RMC subcontract and invoice documentation for the projects in our sample. We interviewed all eight
implementing partners and two RMCs in our sample. We also met with contracting officer representatives for
the projects in our sample.
To calculate the costs of APPF and RMC services and examine the effect the transition had on overall security
costs for reconstruction projects, we analyzed the PSC, APPF, and RMC invoices provided by implementing
partners from March 2011 to February 2013 to determine pre-transition and post-transition security costs.38
To assess the pre-transition costs, we used monthly invoices billed by PSCs to implementing partners from
March 2011 to February 2012. To assess the post-transition costs, we used monthly invoices billed by the


35
 SIGAR 12-10, Increases in Security Costs Are Likely Under the Afghan Public Protection Force; USAID Needs to Monitor
Costs and Ensure Unlicensed Security Providers Are Not Used, June 29, 2012.
36The Support Increased Electoral Participation in Afghanistan is a cooperative agreement implemented by the Consortium

for Election and Political Process Strengthening and consists of three implementing partners: National Democratic Institute,
International Foundation for Electoral Systems, and International Republic Institute. Because each implementing partner
handles its security separately and contracts with its own RMC, we counted and reported on each project individually,
referring to each as Support Increased Electoral Participation in Afghanistan 1, 2, or 3, respectively.
37Our sample was a judgment sample, and not a statistical sample, and therefore the findings reported in this audit cannot

be generalized to all USAID projects.
38Black  and Veatch’s Kandahar Helmand Power Program did not begin until April 2011. As a result, our analysis of pre-
transition security costs did not include March 2011 for this project. Further, because the International Republic Institute
provided incomplete PSC invoice data for January and February 2012, these months were not included to determine the
pre-transition average security costs for their project Support Increased Electoral Participation in Afghanistan 3.

SIGAR Audit 13-15/Security Transition                                                                                Page 14
RMCs and the APPF to implementing partners from March 2012 to February 2013.39 Additionally, we analyzed
other costs as a result of the transition, including additional administrative costs to implementing partners to
manage the APPF and RMCs, and any costs for any additional physical security required as a result of the
transition through the use of subcontractor invoices and a data collection instrument. We obtained information
on these costs through interviews and a data collection instrument sent and completed by all seven
implementing partners whose projects transitioned to either the APPF or RMCs. The data collection instrument
asked implementing partners to quantify and provide evidence of these costs where available.40 We also
reviewed disbursement and obligation data for the projects in our sample provided by USAID’s Office of
Financial Management.
To identify USAID’s mechanisms to review security costs and oversee services provided by the APPF and RMCs,
we reviewed subcontractor consent/approval requests and USAID’s response to those requests for all ten
projects. We also examined reviews of these consent/approval requests performed by the Partner Liaison
Security Office. We compared the RMCs in our sample to the APPF Advisory Group’s list of licensed RMCs.
To address all of our objectives, we reviewed relevant guidance, including the Federal Acquisition Regulation,
Code of Federal Regulations, Presidential Decree 62, and The Bridging Strategy for Implementation of
Presidential Decree 62. We reviewed documents, reports, studies, memoranda, and guidance related to the
APPF and RMCs. We reviewed guidance and regulations by the Afghan Ministry of Interior on the APPF and
RMCs. We met with officials from the USAID Mission’s Office for Acquisition and Assistance; Office of Financial
Management; PLSO; and with contracting officers and contracting officers’ representatives for various projects.
We also met with the APPF Advisory Group under the NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan. We analyzed narratives provided by implementing partners in our data
collection instrument to identify trends and common responses on the effect of the transition on projects and
concerns and experiences in dealing with the APPF. We reviewed documentation from August 2010 through
July 2013.
We performed data reliability tests to determine the accuracy and completeness of the computer-processed
data in the report by comparing hard copies of invoices received to information documented in the data
collection instrument. We determined that the data were sufficiently reliable for the purposes of the audit
objectives. We reviewed USAID’s internal controls to determine whether USAID ensured implementing partners
used RMCs appropriately and our assessment is included in the body of the report.
We conducted our audit work in Kabul, Afghanistan, and Washington, D.C., from February 2013 to July 2013,
in accordance with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. This audit was performed by SIGAR under
the authority of Public Law No. 110-181, as amended, the Inspector General Act of 1978, as amended.




39Chemonics’   Trade Access and Facilitation for Afghanistan project and JHPIEGO’s Health Service Support Project were
completed in November 2012 and October 2012, respectively. Further, because the International Republican Institute did
not provide RMC invoices for March-May 2012, these months were not included to determine the post-transition average
security costs for their project Support Increased Electoral Participation in Afghanistan 3.
40According to JHPIEGO, it did not transition to an RMC or the APPF after the disbandment of PSCs and therefore did not
receive a data collection instrument.

SIGAR Audit 13-15/Security Transition                                                                             Page 15
Appendix II - Comments from the U.S. Agency for International Development




            ~~ USAID
             -;.
              ~
                   O%IDZI ;,..
                                 FROM T HE AMERICAN PEOPLE



                       MEMORANDUM                                                                 .July 22, 20 13

                       TO:                  John r-. Sopko
                                            Special Inspector General lo r
                                            !\ fghanistan Reconstruction (S IG/\ R)
                                                                                                             19
                       PROM:                William llammink. Mission              Director~
                       SUBJ ECT: Draft SIG/\ R Repo rt ti tled ··;\[ghanistan Public Protection
                                 Force: Concerns Remai n about Forcc·s Capabil ities and
                                 Costs.. (S IGJ\ R Audi t 13- 15)

                        REF:                S IGA R Transmittal emai l dated 07/2/20 13

                       Thank you for providing US/\ ID with the opportunity to review the
                       subject dran audi t report. Discussed below are our comments.

                       US/\ 10 believes that the transition to th e Afg hanistan Public Protecti on
                       Force (A PPF) was generall y successful. Despite the predi ctions in
                       S IG/\ R· s audit or A PPF in 20 12. no US/\ ID Implementing Partners (I Ps)
                       fell !\ (ghanistan as a result of the trans it ion and overall security costs
                       incurred by IPs did not increase Ia!Iowing the trans ition. Furthermore.
                       the s ingular achievement of growing an organization from zero
                       empl oyees just over a year ago to more than I 5,000 today ca nn ot be
                       overstated. /\s yo u no doubt wou ld agree. our shared goal is to further
                       assist the /\lghans create a scll~sus tainin g economy: Afghans hiring other
                       A lg hans in an Afghan run ent ity as rcncctcd in the /\ PPF is one starting
                       element in that process.


                       COMMENTS ON SJGAR'S FINDINGS

                       I . Throughout the document. SIG/\R rc lcrs to Risk Management
                       Compan ies (RMCs) being req ui red by ll's in order to suppl ement APPF.
                       /\s stated in the lirst sentence. lirst paragraph of th e summ ary page:

                                  ""The e./feel of/he lransilion 10 !he !I P!'F has been minimal on
                                  projects in S IC !I R ·.1· sample. bill onll' because implemenling
                                  par/ners hired RMCs io.fi/1 APPF capacily gaps and fJeJ.form

                                                                 Tel 202-216-6266/0700- 10600 1
                       US Agency for International Development   Emcul knbuhiStttChrllormatton@IISn•ct gov
                       Great t.1assoud Road                      l_!ltp_Hafghantstnn usmd_gQy
                       Katlul AfghaniStan




SIGAR Audit 13-15/Security Transition                                                                               Page 16
 I
                                                      2



                         critical functions. Without RMCs, the APPF would be unable to
                         provide the full range ofsec uri~)' services needed by USA/D
                         implementing partners. ··

                  USAID Response: USAID notes that a number of projects utilize only
                  APPF without also using an RMC which would negate the claim that
                  RMCs are required to supplement APPF. However, USAID does agree
                  that a high number ofiPs do in fact utilize RMC services which could
                  indicate that many IPs currently only feel comfortable utilizing APPF
                  with the additional support of RMCs.

                  3. On page 3, SIGAR references its previous audit on APPF, SIGAR
                  Audit 12-10, released in June 2012 and states that SIGAR Audit 13-15
                  builds upon the previous tindings. Among the findings and statements
                  made in SIGAR Audit 12-10 were the following:
                         a. On page 8 of the report, SIGAR made the following assertion:
                         "Security Costs Will Likely Increase During the First Year of
                         Transition to APPFfor J3 USAID Projects".
                         b. On page 10 ofthe report, SJGAR made the following claim:
                         "Expatriates Could Increase Costs by as Much as $52.1
                         Million .... assuming an increase of expatriate labor of 200% ".
                         c. On page 11, SIGAR stated "USAID Reports Security Costs Had
                         Decreased, but Its Data Was Inconsistent and Incomplete".

                  USAID Response: If SJGAR Audit 13-15 indeed builds upon the
                  findings in SIGAR Audit 12-10, it is important to note that many of these
                  findings proved to be inaccurate. As SJGAR itself states in Audit 13-15,
                  security costs have decreased and expatriate costs have decreased
                  specifically by more than $30,000 per expatriate as stated on page 8.
                  Given that this audit builds upon the previous audit, it should be noted
                  that the prognosis of APPF provided by USAJD was, in facl, correct.

                  4. On page 5, first paragraph, SIGAR states that "If implementing
                  partners choose not to contract with the APPF or RMCs. their only
                  remaining option for securi~l' sen,ices is unarmed guards. "

                  USAID Response: The APPF is the only provider of armed security
                  services in Afghanistan per Presidential Decree 62. While some RMCs
                  may be armed, they are licensed to do so only for their sci f-protection.
                  Over 70 percent of USAID pr~jccts usc no security service at all, which is
                  roughly in line with the number of implementing partners using security
                  services prior to the transition to APPF.




SIGAR Audit 13-15/Security Transition                                                          Page 17
                  5. On page 12, second paragraph, SIGAR states the following:

                         "APPF is the only allowable armed security provider and rates are
                         subject to negotiation by implementing partners. As a result, our
                         analysis of APPF invoices to implementing partners showed that
                         USAID 's review mechanisms do not and cannot ensure that APPF
                         rates are consistently applied across implementing partners. "

                  USAID Response: SIGAR correctly identifies that APPF is the only
                  allowable armed security provider and rates are subject to negotiation.
                  However, it is important to underscore the point of negotiation which is
                  to achieve the best possible deal for the parties involved. USA ID has no
                  objection to its IPs seeking to obtain the best possible rates for its
                  programs and would expect that those IPs to negotiate the best price.

                  As long as all IPs are charged at or below the APPF published rates, this
                  results in a benefit to USAID in cost savings as opposed to all IPs being
                  simply charged the flat published rates.

                  In regard to reviewing mechanisms, USAID believes its current
                  procedures of reviewing rates to determine that they are not overall
                  higher than those published is sufficient as that is the only standard
                  applicable, considering that APPF is a parastatal organization. USAID is
                  not seeking to confirm that rates arc applied uniformly, but rather that
                  they are reasonable.

                  6. On page 13, fourth paragraph, SIGAR states that it found that "USAID
                  does not have mechanisms in place to ensure that the APPF charges
                  implementing partner only for the services it provides."

                  USAID Response: USAID does not have a contractual relationship with
                  APPF and as such it is not possible or practicable to have such
                  mechanisms in place. It is the responsibility of the IP to make such
                  determinations directly with APPF. However, in case of disputes, the IP
                  can rcter the issue to the cognizant Agreement Ofllker/Contracting
                  Officer (AO/CO). The AO/CO will then seek the advice of the USAID
                  Partner Liaison Security Oflice and/or the APPF Advisory Group (AAG)
                  which works with APPF and deal with any issues.

                  7. On page 13, fourth paragraph, SIGAR states the following:

                         "APPF charges implementing partners a monthly weapons fee of
                         approximate~v
                                     $25 per guard. However. these are the same




SIGAR Audit 13-15/Security Transition                                                         Page 18
                                                      4


                        weapons previously purchased by PSCs that the APPF required be
                         turned over to the APPFfor use by its guards during the transition.
                         Therefore, implementing partners are now paying a monthly rental
                        fee for weapons previously purchased by its subcontracted PSCs. "

                  USAID Response: This statement is not fully accurate in describing the
                  situation. and USAID recommends its deletion. The IPs never procured
                  and never had ownership of these weapons as all previous PSC sub-
                  contracts were Fixed Price. All property procured under the fixed-price
                  sub-contracts would have been retained by the PSC service provider at
                  the end of the award.

                  Under fixed-price awards with a PSC provider, the IP is paying only for a
                  service to be provided by the PSC and any materials purchased under the
                  award to provide this service remain the property of the service provider,
                  which in this case is the PSC provider. Furthermore, all USAID IPs are
                  precluded from directly procuring weapons or other military hardware but
                  instead may choose to contract for the provision of security services that
                  may require the use of weapons to provide this service. This is the same
                  scenario that IPs now operate under in their sub-contracts with APPF.

                  8. On page 14, second paragraph, SIGAR states the following: "Despite
                  USAID 's assurance that it would implement a formal process to ensure
                  that licenses are submitled, reviewed, and documented, we found that
                  USAID has not established such a process. "

                  VSAID Response: In September 2012, USAID provided to SIGAR the
                  formal process that was implemented to ensure that licenses are
                  submitted, reviewed and documented. This policy directive contained in
                  a memo from the Office of Acquisition and Assistance (OAA)'s Office
                  Director to all Contracting and Agreement Officers as well as Contract
                  and Agreement Specialists, provides that a valid RMC license is required
                  to be submitted and that a review must be conducted and documented
                  prior to approving or consenting to a RMC sub-award. This directive is
                  again provided as Attachment I.

                  USA ID acknowledges that full compliance with this policy has not yet
                  been implemented but it is important to note the policy was created.
                  Furthermore, with the creation of a Compliance Unit within OAA,
                  compliance with this policy will be more strictly adhered to moving
                  forward. A reminder was sent on July 2, 2013 to the entire OAA staff
                  and is provided as Attachment 2.




SIGAR Audit 13-15/Security Transition                                                          Page 19
                                                        5



                  Finally, it is worth noting that no instances of any IP utilizing an
                  unlicensed RMC have been found.

                  9. On page 14, third paragraph, SIGAR states that "USA/D's review
                  mechanisms do not ensure that implementing partners are not exceeding
                   the maximum number of allowable armed RMC personnel. Afghan
                  government regulations limit the number ofarmed RMC personnel to one
                  for evetJ' ten APPF guards." In addition, on page 14, fourth paragraph,
                  SIGAR states "USAID officials stated that their understanding ofthe
                  regulation is that the ratio applies to RMC personnel compared to the
                  number of implementing partners' employees, not APPF personnel. "

                  USAID Response: Understandably, the Afghan regulation can be
                  construed as unclear. The correct interpretation is that the ratio is not one
                  armed RMC personnel for every ten APPF guards but rather one armed
                  RMC personnel for every ten individuals at a project site including IP
                  personnel and any APPF guards that may be at site. The foregoing
                  interpretation has been clarified with both the APPF Advisory Group
                  (AAG) afier consultations with the APPF and USAID's Regional Legal
                  Office. Furthermore, this ratio may be exceeded if approved by the
                  executive board. In relation to this, it is the responsibility of the RMC to
                  ensure that it is not in violation of the stated ratio of one {I) RMC
                  consultant to ten ( 10) individuals at the IP site. USAID cannot be put in a
                  position of providing assurances of compliance between awards in which
                  it does not have privity.

                  10. On page 15, second paragraph, SIGAR states that "The apparent
                  ease with which implementing partners revised their security postures
                  and renegotiated expatriate labor rates to reduce costs raises the concern
                  that previous security requirements and costs were unnecessarily high."

                  USAID Response: This is a speculative statement. SIGAR fails to note
                  that there are many dynamics that go into an IP's decision to change its
                  security posture. For example, some IPs decided that their security             See SIGAR
                  interests would be better served by having a lower visibility than would        comment 10
                  be possible if they were to have uniformed APPF guards providing
                  security.

                  11. On page 15, third paragraph, SIGAR states the following:

                         "Ultimately, relying on the APPF for as the sole provider of
                         security services raises concernsforfuture unrestrained cost
                         increases. As it currently stands, the APPF can unilaterally




SIGAR Audit 13-15/Security Transition                                                                     Page 20
                         establish its rates without fear of competition, and implementing
                         partners that require armed security have no choice but to pay the
                         APPF's often inconsistent and inappropriate fees. Thus, the APPF
                         acts as a monopoly service provider. "

                  USAID Response: Correct, as APPF is by Afghan law the only security
                  service provider, there is no other option to consider and it can be
                  interpreted to serve as a monopoly service provider for armed guards.
                  Companies have the choice and make the strategic business decision to
                  either cease conducting business in Afghanistan or adapt their security
                  posture. Since no companies or organizations have left Afghanistan due         See SIGAR
                  to APPF, they have either agreed to conduct business or adjust their needs     comment 11
                  accordingly. Furthermore, as SIGAR notes on page 8, prices have in fact
                  not increased overall. This situation is normal for any business as it
                  matures and better learns its pricing structure. Finally, the influence that
                  can be applied by not continuing to fund and implement a needed project
                  due to high security costs has proven thus far to be sufficient to restrain
                  cost increases.

                  COMMENTS ON SIGAR'S RECOMMENDATION

                   To ensure implementing partners use RMCs in accordance with Afghan
                  government regulations, we recommend that the USAID Mission Director
                  for Afghanistan:

                      1. Determine why a formal process requiring implementing partners
                         to submit Afghan MinistiJ' of Interior licenses as part oftheir
                         requests to enter into subcontracts with RMCs was not created.

                      2. Establish and implement/he necesSGIJ' processes requiring
                         implementing partners to submit RMC licenses, ensure that the
                         licenses are reviewed for validity, and document these reviews
                         prior to approving or consenting to the RMC subcontract award
                  USAID Response: USAID does not agree with these recommendations.

                  USAID finds these recommendations not applicable as described in detail
                  in Technicai Comment 8. A formai process has already been established
                  as outlined in Attachment 1. USAID acknowledges that compliance to
                  date has not been perfect, but as described previously, steps have been
                  taken to ensure the formal process is adhered to moving forward.




SIGAR Audit 13-15/Security Transition                                                                   Page 21
                                                       7


                      3. Develop policy guidance for implementing partners regarding the
                         proper use of RMCs. Such guidance should clearly indicate
                         whether an implementing partner can contract with an RMC when
                         it is not contracting with the APPF.
                  USAID Response: USAID does not agree with this recommendation.

                  The Afghan Government issued Risk Management Company Procedures
                  to provide guidance to all IPs that wish to use RMC services. There is no
                  requirement that APPF services must be utilized when utilizing RMC
                  services. Any additional guidance would be redundant and could result in
                  possible contradictions. USAID recommends the deletion of this
                  recommendation.

                      4. Clarify the ratio regarding the maximum allowable number of
                         RMC personnel cited in RMC regulations with the Afghan
                         government

                      5. Establish a formal process to ensure that implementing partners do
                         not exceed the applicable RMC ratio.
                  USAID Response: USAID does not agree with these recommendations.

                  As discussed in detail in Technical Comment 9, the ratio ofRMC
                  personnel has already been clarified. Furthermore, it is the responsibility
                  of the IP and RMC provider to ensure that this ratio is not exceeded as
                  USAID does not have privity to the IP/RMC sub-contract. USAID
                  recommends the deletion of this recommendation.


                  Attachments:
                     1) OAA-IN-20 12-016 -- Required Review Process Prior to Sub-
                        award Approval/Consent of RMCs
                     2) OAA Reminder of Process for Approving/Consenting to RMCs
                        dated 7/2/20 13



                  cc: U.S. Embassy Kabul/Coordination Directorate




SIGAR Audit 13-15/Security Transition                                                           Page 22
                            SIGAR Response to USAID Comments of July 23, 2013
    1. While we agree the transition to the APPF has been rapid, our report highlights concerns with the APPF
       as the sole provider of security services. We note that the APPF was originally created in 2009 and
       was already in existence during the time of the transition in March 2012. Further, much of the growth
       of the APPF is a result of trained guards transitioning from the PSCs to the APPF. For example, as we
       noted in our report, 99 percent of APPF guards for the projects in our sample transitioned from the
       PSCs.
    2. Contrary to USAID’s assertion, the report does not claim that RMCs are required to supplement the
       APPF for every project. However, of the ten projects we selected, five used both the APPF and an RMC,
       four used only an RMC, and one did not use either the APPF or an RMC. None of the projects in our
       sample—drawn from 35 of the largest projects, by dollar value, from fiscal years 2009-2011 and
       representing over $1 billion in total estimated cost and about $713 million in expenditures as of
       March 2013—used the APPF without an RMC.
    3. USAID mischaracterizes the findings of our previous audit, SIGAR 12-10. In that report, we found that
       implementing partners expected expatriate labor costs to increase post-transition because additional
       expatriate labor would be required to manage the transition. During the course of this audit, we found
       that all five projects in our sample that used the APPF required additional expatriate labor, as we
       reported as a concern in SIGAR 12-10. While the use of expatriates increased, the decrease in the
       average cost of an expatriate was the result of implementing partners re-negotiating or re-competing
       labor costs of RMCs. Additionally, SIGAR 12-10 reported that if security needs stayed the same,
       overall security costs would likely increase. We found during the course of our work in this audit, 9 of
       10 projects drastically modified their security posture. As result, security costs decreased. Our prior
       work remains valid.
    4. We understand some projects may not require security. For this audit, we reviewed USAID’s largest
       projects by total expenditures, and all 10 projects utilized security services in the form of armed APPF
       guards, RMC consultants, and/or unarmed guards.
    5. As stated in the report, USAID’s Partner Liaison Security Office (PLSO) reviews all implementing
       partner requests for subcontract approval or consent. The PLSO provided 10 APPF and RMC
       subcontract reviews that it completed for the projects in our sample. Officials from USAID’s Office of
       Acquisition and Assistance and the PLSO stated that ensuring cost consistency was a goal of the
       PLSO’s reviews. Our analysis found that the reviews examined proposed subcontract costs for
       consistency with market rates and reasonableness and were thorough and specific in identifying cost
       and performance concerns. However, the PLSO’s reviews cannot ensure that APPF rates are
       reasonable. For example, the PLSO identified several concerns with the reasonableness of APPF rates,
       but implementing partners were still required to use such services because the APPF is the only
       allowable armed security service provider.
    6. We revised language in the report to indicate that USAID’s existing review mechanisms cannot ensure
       that the APPF does not charge for services it cannot provide. USAID officials stated that the PLSO
       reviews all requests to subcontract with the APPF for consistency and reasonableness. We believe that
       ensuring implementing partners are only billed for those services provided is included in a review for
       “reasonableness.” Although the PLSO conducts thorough reviews, the APPF’s monopoly status leaves
       implementing partners no choice, if negotiations fail, other than to pay any APPF fees, even for
       services not provided.
    7. USAID states that our characterization of how the APPF procured and charges for weapons is not fully
       accurate, asserting that the PSCs actually purchased the weapons and that implementing partners are
       precluded from directly purchasing weapons. Contrary to USAID’s assertion, the report did not state
       that implementing partners ever had ownership of the weapons or directly procured them. Instead, we



SIGAR Audit 13-15/Security Transition                                                                   Page 23
        stated that the PSCs purchased the weapons. In addition, APPF invoices to the implementing partners
        directly charge a rental fee for weapons and ammunition.
    8. Our finding that USAID has not, despite agreeing to a recommendation in our prior audit, established a
       formal process requiring implementing partners to provide RMC licenses and USAID contracting and
       agreement officers to document the validity of these licenses was based, in part, on an interview with
       a high-level official in USAID’s Office of Acquisition and Assistance. Further evidence of USAID’s failure
       to fully implement our prior recommendation is the agency’s inability to provide all licenses for the
       projects in our sample or documentation showing that license validity had been documented.
       Furthermore, in USAID’s comments, USAID acknowledged that “full compliance has not yet been
       implemented.”
    9. Despite USAID’s assertion, we maintain that it is in USAID’s interest to have mechanisms in place to
       ensure that its implementing partners do not exceed the allowable ratio. USAID has a contractual
       relationship with its implementing partners and should make every effort to ensure that those
       partners do not exceed the established ratio. If implementing partners are found to be in violation of
       Afghan law, project security, and ultimately the project itself, is at risk.
    10. Our conclusion is based on the ability of the implementing partners for 9 of the 10 projects included in
        our sample to significantly revise their security postures quickly and as a direct result of the required
        transition to the APPF for armed security services.
    11. While we noted that costs did not increase overall, we also found that costs for Afghan guards under
        the APPF increased by 23 to 47 percent for the projects in our sample. Any cost savings were realized
        from implementing partners that either did not use the APPF or did not re-negotiate or re-compete
        their RMC contracts. Our concern is that costs for armed Afghan guards may continue to rise and will
        be unrestrained due to the lack of competition resulting from APPF’s monopoly status. Exacerbating
        this, the Afghan government plans to eventually phase out RMCs, leaving only the APPF to provide the
        services currently provided by RMCs and potentially resulting in higher costs.




SIGAR Audit 13-15/Security Transition                                                                    Page 24
Appendix III - Acknowledgments

Matthew Dove, Senior Audit Manager
Tara Chapman, Analyst-in-Charge
Neha Desai, Senior Program Analyst
Ryan Heger, Program Analyst




SIGAR Audit 13-15/Security Transition   Page 25
                                    This inspection report was conducted
                                      under project code SIGAR-074A.




SIGAR Audit 13-15/Security Transition                                      Page 26
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065



                               Public Affairs Officer
              Public Affairs               Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
